FEDERAL PRISON INDUSTRIES, INC.


 ANNUAL FINANCIAL STATEMENTS 

      FISCAL YEAR 2011 

         U.S. Department of Justice 

       Office of the Inspector General 

                Audit Division 


            Audit Report 12-06 

             December 2011


           FEDERAL PRISON INDUSTRIES, INC. 

            ANNUAL FINANCIAL STATEMENTS 

                  FISCAL YEAR 2011



              OFFICE OF THE INSPECTOR GENERAL 

                 COMMENTARY AND SUMMARY



      This audit report contains the Annual Financial Statements of the
Federal Prison Industries, Inc. (FPI) for the fiscal years (FY) ended
September 30, 2011, and September 30, 2010. In accordance with the
Government Corporation Control Act, as amended (31 U.S.C. §9105), and
under the direction of the Office of the Inspector General (OIG), Cotton &
Company LLP performed the audit in accordance with U.S. generally
accepted government auditing standards. The audit resulted in an
unqualified opinion on the FY 2011 financial statements. An unqualified
opinion means that the financial statements present fairly, in all material
respects, the financial position and the results of the entity’s operations in
conformity with U.S. generally accepted accounting principles. For FY 2010,
the FPI also received an unqualified opinion on its financial statements (OIG
Report No. 11-06).

       Cotton & Company LLP also issued reports on internal control over
financial reporting and on compliance and other matters. The auditors did
not identify any significant deficiencies in the FY 2011 Independent Auditors’
Report on Internal Control over Financial Reporting. In the FY 2011
Independent Auditors’ Report on Compliance and Other Matters, the auditors
identified no instances of non-compliance with applicable laws and
regulations and the Federal Financial Management Improvement Act of
1996.

      The OIG reviewed Cotton & Company LLP’s reports and related
documentation and made necessary inquiries of its representatives. Our
review, as differentiated from an audit in accordance with U.S. generally
accepted government auditing standards, was not intended to enable us to
express, and we do not express, an opinion on the FPI’s financial
statements, conclusions about the effectiveness of internal control,
conclusions on whether the FPI’s financial management systems
substantially complied with the Federal Financial Management Improvement
Act of 1996, or conclusions on compliance with laws and regulations. Cotton
& Company LLP is responsible for the attached auditors’ reports dated
November 1, 2011, and the conclusions expressed in the reports. However,
our review disclosed no instances where Cotton & Company LLP did not
comply, in all material respects, with U.S. generally accepted government
auditing standards.
This page intentionally left blank.


                 FEDERAL PRISON INDUSTRIES, INC.


                  ANNUAL FINANCIAL STATEMENTS


                        FISCAL YEAR 2011



                              TABLE OF CONTENTS



                                                                                         PAGE

MESSAGE FROM THE ACTING CHIEF EXECUTIVE OFFICER AND
  THE CHIEF OPERATING OFFICER.........................................................1



MANAGEMENT'S DISCUSSION AND ANALYSIS..........................................5



INDEPENDENT AUDITORS’ REPORTS



  REPORT ON FINANCIAL STATEMENTS ................................................ 15



  REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING............ 17



  REPORT ON COMPLIANCE AND OTHER MATTERS ................................ 19



PRINCIPAL FINANCIAL STATEMENTS AND RELATED NOTES



  BALANCE SHEETS ........................................................................... 23



  STATEMENTS OF OPERATIONS AND CUMULATIVE RESULTS OF


    OPERATIONS ............................................................................. 24



  STATEMENTS OF CASH FLOWS ......................................................... 25



  NOTES TO FINANCIAL STATEMENTS.................................................. 26


This page intentionally left blank.


               •                   -- .
unlcor 
           We're fife changing.




                                                             November 9, 2011




We are pleased to present the Fiscal Year 2011 Annual Management Report to the Congress of
the United States. This report includes FPI's commercial financial statements, Management's
Discussion and Analysis, Office of the Inspector General Commentary and Summary, and the
independent auditor's report on the Corporation's financial statement, internal controls,
compliance and other matters. FPI received an unqualified audit opinion on its financial
statements and it was free of significant deficiencies or material weaknesses.

The FPI program is one of the Bureau of Prisons' (BOP) most important correctional
management and reentry programs. It was established by statute and Executive Order in 1934, to
provide opportunities for education and work-related experiences to federal offenders. FPI's
mission is to employ and train as many Federal inmates as possible, while maintaining its self­
sufficiency without appropriated funds, and minimizing its impact on private sector business.
The program reduces recidivism, increases the likelihood that participants will be gainfully
employed upon release, and is a significant contributor to the safe and effective management of
BOP facilities.

As a federal government corporation, FPI must function as a program and a business and faces a
dynamic set of external as well as internal constraints. In recent years, the nation's economic
trend has had a trickle down effect on FPI. Increased competition for government business,
reduced discretionary spending of its government customers and adverse legislation affecting
FPI's mandatory source have impacted FPI's ability to operate at the same level it has in prior
years. During fiscal year 2009, FPI recognized this downward trend and began taking the
necessary steps to ensure that it remains viable during these challenging economic times.

FPI is committed to maintaining a lean organization to ensure it continues to function as an
effective program and meet its core mission. Toward this end, in an effort to conserve
resources, FPI has taken steps over the last three years to ensure that its factory capacity is
commensurate with its customers' current demand. Additionally, FPI has made progress toward
reducing factory overhead and general administrative expenses. While FPI incurred an operating
loss for fiscal year 2011, the loss represented only two tenths of one percent of its sales for the
year.

Maintaining cash is also an important component of FPI's plan to respond to the future demands
of its customers. FPI continues to focus on reducing its inventories, delaying purchases,



                           A Life-Changing Program       -    unicor.gov
                                                -1-
minimizing capital expenditures and ensuring that accounts receivable are collected promptly.
During fiscal year 2011 FPI was successful in increasing its cash balance by $28.7 million.

FPI remains grateful for the outstanding contributions and dedication of its staff as well as the
exceptional leadership provided by FPI's Board of Directors during these difficult financial
times.




   /~R.£MfL
Thomas R. Kane, Acting Chief Executive Officer                                  erating Officer




                         A Life-Changing Program          -   unicor.gov
                                                -2-
U.S. DEPARTMENT OF JUSTICE



FEDERAL PRISON INDUSTRIES, INC.


           MANAGEMENT’S
        DISCUSSION & ANALYSIS
             (UNAUDITED)




                 -3-
This page intentionally left blank.






                -4-
                             U.S. Department of Justice


                            Federal Prison Industries, Inc.


                         Management’s Discussion and Analysis


                                     (Unaudited)




Mission

It is the mission of Federal Prison Industries, Inc. (FPI) to employ and provide job skills training to
the greatest practicable number of inmates confined within the Federal Bureau of Prisons; contribute
to the safety and security of our Nation’s federal correctional facilities by keeping inmates
constructively occupied; provide market-quality products and services; operate in a self-sustaining
manner; and minimize FPI’s impact on private business and labor.

Organizational Structure of Federal Prison Industries, Inc.

FPI is a wholly-owned government corporation created by Congress in 1934. FPI is authorized to
operate industries in federal penal and correctional institutions and disciplinary barracks (18 U.S.C. §
4121 to § 4129). The Director of the Federal Bureau of Prisons (BOP), who has jurisdiction over all
federal correctional institutions, is the Chief Executive Officer. General management of FPI is
provided by the Chief Operating Officer who also serves as an Assistant Director for the BOP.

In fiscal year 2011, FPI operated in seven business segments: Clothing and Textiles, Electronics,
Fleet Management and Vehicular Components, Industrial Products, Office Furniture, Recycling, and
Services. FPI has industrial and service operations at 88 factories located at 66 prison facilities
representing approximately 8% of the work eligible inmate population as of September 30, 2011.
Factories are operated by FPI supervisors and managers, who train and oversee the work of inmates.
The factories utilize raw material and component parts purchased from the private sector to produce
finished goods. Orders for goods and services are obtained through marketing and sales efforts
managed by FPI staff. Some products and all services are provided on a non-mandatory, preferred
source basis.

FPI processes primarily all customer orders and invoicing through a centralized customer service and
accounts receivable center at Lexington, Kentucky. Vendor payments are processed at a centralized
accounts payable center at the Butner, North Carolina facility. In addition, FPI performs product
development, testing and costing at its facility in Englewood, Colorado.

Financial Structure

FPI operates as a revolving fund and does not receive an annual appropriation. The majority of
revenues are derived from the sale of products and services to other federal departments, agencies,
and bureaus. Operating expenses such as the cost of raw materials and supplies, inmate wages, staff
salaries, and capital expenditures are applied against these revenues resulting in operating income or
loss, which is reapplied toward operating costs for future production. In this regard, FPI makes




                                                 -5-
capital investments in buildings and improvements, machinery, and equipment as necessary in the
conduct of its industrial operation.

FPI sells products and services to the majority of federal departments, agencies and bureaus. FPI’s
largest federal government customers include the Department of Defense (DOD), the Department of
Homeland Security (DHS), the Department of Justice (DOJ), the General Services Administration
(GSA), and the Social Security Administration (SSA).

Critical Accounting Policies

The following discussion and analysis of FPI’s financial condition, results of operations, liquidity
and capital resources are based upon FPI’s financial statements, which have been prepared in
accordance with U.S. generally accepted accounting principles based on accounting standards issued
by the Financial Accounting Standards Board (FASB), the private sector standards-setting body.
These generally accepted accounting principles require FPI management to make estimates and
judgments that affect the reported amount of assets, liabilities, revenues and expenses. In this regard,
FPI management evaluates the estimates on an on-going basis, including those related to product
returns, bad debt, inventories, long-lived assets, and contingencies and litigation. FPI bases its
estimates upon historical experience and various other assumptions that FPI believes are reasonable
under the circumstances. The actual results may differ from these estimates when assumptions or
conditions change.

FPI believes that some of its accounting policies involve complex or higher degrees of judgment than
its other accounting policies. The following accounting policies have been identified by FPI
management as being critical and therefore require more significant estimates or reliance on a higher
degree of judgment on the part of FPI management.

Revenue recognition: Revenue is generally recognized when 1) delivery has occurred or services
have been rendered, 2) persuasive evidence of an arrangement exists, 3) there is a fixed or
determinable price, and 4) collectability is reasonably assured. Revenue from contracts that specify a
customer acceptance criteria is not recognized until either customer acceptance is obtained or upon
completion of the contract. Sales returns are primarily replaced with like items and are recorded as
they occur.

Revenue is recognized on multiple element (numerous stages of product delivery, set up, and
installation) agreements as a single unit of accounting for manufactured items when the product has
been accepted by the customer. Revenue for services provided on behalf of FPI is recognized when
the service provider presents a valid invoice including a customer acceptance or completion notice.

Allowance for doubtful accounts receivable: The allowance for doubtful accounts is based upon
an analysis of several factors including payment trends, historical write off experience, credit quality
for non-governmental accounts, and specific analysis of collectability of an account. During the
course of time, these factors may change which will cause the allowance level to adjust accordingly.
As part of their analysis, customer accounts determined to be unlikely to be paid are recorded as a
charge to bad debt expense in the income statement and the allowance account is increased. When it



                                                 -6-
becomes certain that a customer account will not be paid, the receivable is written off by removing
the balance from accounts receivable.

As of September 30, 2011 and September 30, 2010, FPI had established an allowance for bad debt in
the amount of $.66 million and $.83 million on accounts receivable balances of $47.34 million and
$34.83 million, respectively.

Inventory Valuation: FPI maintains its inventory primarily for the manufacture of goods for sale to
its customers. FPI’s inventory is composed of three categories: Raw Materials, Work-in-Process,
and Finished Goods. These categories are generally defined by FPI as follows: Raw Materials
consist of materials that have been acquired and are available for the production cycle, Work-in-
Process is composed of materials that have moved into the production process and have some
measurable amount of labor and overhead added by FPI, Finished Goods are materials with FPI
added labor and overhead that have completed the production cycle and are awaiting sale to
customers.

Raw material inventory value is based upon moving average cost. Inventories are valued at the
lower of average cost or market value (LCM) and include materials, labor and manufacturing
overhead. Market value is calculated on the basis of the contractual or anticipated selling price, less
allowance for administrative expenses. FPI values its finished goods and sub-assembly items at a
standard cost that is periodically adjusted to approximate actual cost. FPI has established inventory
allowances to account for LCM adjustments and obsolete items that may not be utilized in future
periods.


Program Values

It is the mission of Federal Prison Industries, Inc. (FPI) to employ and provide job skills training to
the greatest practicable number of inmates confined within the Federal Bureau of Prisons; contribute
to the safety and security of our Nation’s federal correctional facilities by keeping inmates
constructively occupied; provide market-quality products and services; operate in a self-sustaining
manner; and minimize FPI’s impact on private business and labor.

The goal of FPI is to reduce undesirable inmate idleness by providing a full-time work program for
inmate populations (goal of approximately 25 percent of “work eligible” inmates). Many of the
inmates do not have marketable employment skills. FPI provides a program of constructive
industrial work and services wherein job skills can be developed and work habits acquired.

As with most governmental programs, the real value of the entity is not readily measured in dollars
and cents and is not always contained in the financial reports. FPI has existed as an effective
correctional program for 77 years. Over the course of these years, FPI has positively impacted the
lives of countless inmates and staff members that reside and work in the Bureau of Prisons and the
surrounding local communities in which we live.

It is impossible to quantify the extent to which FPI’s success has prevented inmate unrest that would



                                                 -7-
have been costly in lives as well as dollars. In the face of an escalating inmate population and an
increasing percentage of inmates with histories of violence, FPI’s programs have helped ease tension
and avert volatile situations, thereby protecting lives and federal property. Prisons without
meaningful activities for inmates are dangerous prisons, and dangerous prisons are expensive
prisons. The work and education programs of FPI have played an essential role in protecting lives,
preserving stability and saving money in America’s federal prisons.

At the same time, FPI has met its other goal of offering opportunities for inmates who want to take
the personal responsibility for rehabilitating themselves. Most inmates eventually will be returned to
society; industrial and educational programs can help them to steer clear of criminal activity after
release. FPI plays a vital role in management of inmates, and also improves the likelihood that
inmates will remain crime-free upon their release from BOP custody. A comprehensive study
conducted by the BOP demonstrated that FPI provides inmates with an opportunity to develop work
ethics and skills, contributes substantially to lower recidivism and increases job-related success of
inmates upon release. This study indicates that inmates involved in FPI work programs and
educational programs are substantially less likely to return to prison. The impact on the lives of
people who live in the communities in which these inmates will return is immeasurable. Countless
lives are spared the devastating impact of continued criminal activity.


Analysis of Financial Statements

Cash and Investments

Cash and Cash Equivalents decreased $30.9 million. This is primarily the result of a decrease in
cash advances of $59.6 million. FPI’s cash advances are primarily for the purchase of inventory in
support of the Fleet Management and Vehicular Components vehicle retrofitting operation. The
primary customer for these operations is the Department of Homeland Security; advances fluctuate
throughout the year as they receive appropriations. Reductions in inventory along with successful
cost containment measures resulted in an increase in FPI (non-advance) cash of $28.7 million during
fiscal year 2011. Other factors which affected the overall change in cash include a $12.7 million
increase in Accounts Receivable and a decrease in inventory of $69.4 million.

Accounts Receivable

The Accounts Receivable balance increased $12.7 million during fiscal year 2011. The Accounts
Receivable balance of $46.7 million as of September 30, 2011, represents 78.9 percent of
September’s total revenues. FPI’s average days to collect for fiscal year 2011 was approximately 25
and was 24 in the month of September while the average days to collect for fiscal year 2010 was 24
and was 18 for the month of September 2010. Although sales were approximately the same for
September 2011 ($59.2 million) and September 2010 ($59.6 million), collections during the month
of September 2010 were exceptional and extraordinary which resulted in extremely low accounts
receivable balance. The Accounts Receivable balance over sixty days old represented only 5 percent
of the total balance as of September 30, 2011.




                                                -8-
Inventory

Inventory decreased by $69.4 million during fiscal year 2011. FPI continued to place an increased
emphasis on inventory reduction during fiscal year 2011. While some business segments achieved
reductions, the Electronics and Fleet Management and Vehicular Component business segments
were the primary contributors to the reduction with decreases of $32.2 and $42.6 respectively. The
Electronics segment decrease can be attributed to the sale of solar panel raw materials through GSA
totaling $32.7 million. The decrease in Fleet Management business segment can be attributed to a
decrease of $30.8 million in current backlog as of September 30, 2011, compared to September 30,
2010. Modest increases resulted for Office Furniture, Services, and Clothing and Textiles business
segments.

Liabilities

Total Liabilities decreased by $101 million during fiscal year 2011. Advances Payable decreased
$98.6 million during fiscal year 2011. This decrease is attributable to a change in customer advances
payable on hand primarily for the retrofitting of vehicles for the Department of Homeland Security
(DHS) as a result of a decrease in customer contracts. Accounts Payable remained fairly consistent
between the two fiscal years accounting for a $1.2 million decrease.

Revenue, Cost of Revenue and Net Loss

Total Revenue increased by $46.1 million while total cost of revenue decreased by $8.0 million. The
increase in revenue resulted from the sale of Solar Cells of $32.7 million, increase in Interagency
Solutions Group services of $17.3 million, and an increase in installation services performed
primarily for Office Furniture business segment of $10.3 million. These substantial increases were
offset by a decrease in sales of $31.6 million. Two of the largest business segments showing a
decrease in sales were Electronics with $22.7 million and Fleet with $27.4 million. The Office
Furniture and Industrial Products business segments had offsetting increases of $26.5 million $11.3
million in sales respectively. The decrease in Cost of Revenues is the result of FPI’s efforts to
reduce inventories and expenditures though capacity reductions. Net Loss decreased $54.5 million in
fiscal year 2011 compared to fiscal year 2010. Factory Earnings were $56.4 million higher in fiscal
year 2011 than the previous fiscal year with six out of the seven business segments showing
improved earnings. The Clothing and Textiles business segment was the only group with slightly
lower earnings in fiscal year 2011.

Business Segments

In fiscal year 2011, FPI’s businesses were organized, managed and internally reported as seven
operating segments based on products and services. These segments are Clothing and Textiles;
Electronics; Fleet Management and Vehicular Components; Industrial Products; Office Furniture;
Recycling; and Services. FPI is not dependent on any single product as a primary revenue source;
however, it is dependent on the federal government market for the sale of its products. FPI’s net
industrial income (earnings) at the business segment level consists of sales offset by cost of goods
sold and under /over applied overhead. Fiscal Year 2010 net sales of $776,984 included $4,088




                                                -9-
recorded to FPI’s Corporate Office. FPI’s net sales and earnings for the fiscal years ended
September 30, 2011 and 2010 for each of its current business segments is presented for comparative
purposes:


Business Segment                                   Fiscal Year
Clothing and Textiles                   2011                        2010
Sales                                  $238,631                   $246,470
Earnings                                $34,035                    $35,885
Electronics
Sales                                   $76,443                    $99,107
Earnings                                ($7,391)                  ($45,360)
Fleet Management and Vehicular Components
Sales                                  $177,863                   $205,221
Earnings                                $14,112                     $7,029
Industrial Products
Sales                                   $55,281                    $44,029
Earnings                                 $7,004                     $5,999
Office Furniture
Sales                                  $155,819                   $129,312
Earnings                                $11,141                     $2,880
Recycling
Sales                                   $15,276                    $13,596
Earnings                                 $4,555                     $3,586
Services
Sales                                    $26,110                   $35,161
Earnings                                 ($1,447)                  ($4,385)
Corporate Total
Sales                                  $745,423                   $772,896
Earnings                                $62,009                     $5,634


Possible Future Effects of Existing Events and Conditions

As reported in fiscal years 2009 and 2010, FPI continues to face the negative impact of economic and
legislative forces. In fiscal years 2011 and beyond, FPI faces the additional challenge of the
shrinking federal budget, the resulting decline in discretionary spending and the ultimate impact of



                                               -10-
decline in FPI sales. FPI continues to address these external challenges through aggressively
pursuing new customers and new products, involvement in legislative initiatives, capacity reductions,
and strict measures to control cash.

During fiscal year 2011, FPI encountered a decline in sales for the second consecutive year and
experienced a net loss for the third consecutive year. However, FPI’s net loss for fiscal year 2011
was $1.8 million, a considerable improvement compared to the original projected loss for fiscal year
2011 of $12.6 million, and actual losses of $36.9 and $56.3 million in fiscal years 2009 and 2010,
respectively. Included in the $56.3 million dollar loss during fiscal year 2010 were write-offs totaling
$35.1 million in military helmet inventory and solar cells. $4.6 million in fiscal year 2011 losses
were due to Property, Plant and Equipment (PP&E) losses related to capacity reductions announced
in prior years. If the referenced PP&E losses were to be factored out, FPI would have achieved net
income of $2.8 million for fiscal year 2011. The improved results for fiscal year 2011 were primarily
due to prior capacity reductions and ongoing efficiency measures.

FPI’s Cash position remains strong. During fiscal year 2011, in addition to capacity and overhead
reductions, FPI focused efforts towards maintaining minimal inventory on hand, collections of
receivables and reducing capital improvements. As a result of these efforts, FPI achieved a $28.7
million increase in operating cash during fiscal year 2011. FPI developed a realistic fiscal year 2012
operating plan which includes a sales reduction of $66 million compared to fiscal year 2011 actual
results and projects a $23.6 million loss (including PP&E loss of $8 million). However, despite the
planned reduction in sales and earnings, operating cash is expected to remain stable. FPI remains
confident that through continued efforts toward maintaining capacity commensurate with demand, a
stable balance sheet, and a strong cash balance while continuing to develop new sales opportunities,
it will minimize the impact of these external challenges and ensure FPI continues to have the
resources to meet its goals.

In December 2009, the Department of Justice, Office of Inspector General, initiated an investigation
regarding the manufacturing and quality procedures for some of the military helmets produced by
FPI. This investigation is still ongoing. FPI’s management is committed to ensuring FPI produces a
quality product that meets the requirements of our customers.




                                                 -11-
This page intentionally left blank.






               -12-
U.S. DEPARTMENT OF JUSTICE



FEDERAL PRISON INDUSTRIES, INC.


    INDEPENDENT AUDITORS’ REPORTS




                 -13-
This page intentionally left blank.






               -14-
                               INDEPENDENT AUDITORS’ REPORT ON FINANCIAL STATEMENTS


Acting Inspector General
United States Department of Justice


Acting Chief Executive Officer
Board of Directors
Federal Prison Industries, Inc.
United States Department of Justice


We have audited the accompanying Balance Sheets of the Federal Prison Industries, Inc. (FPI), a component of the
United States Department of Justice (DOJ), as of September 30, 2011 and 2010, and the related Statements of
Operations and Cumulative Results of Operations, and Statements of Cash Flows for the years then ended. These
financial statements are the responsibility of FPI’s management. Our responsibility is to express an opinion on
these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended. Those standards and OMB Bulletin No. 07-04 require
that we plan and perform the audits to obtain reasonable assurance about whether the financial statements are
free of material misstatement. An audit includes consideration of internal control over financial reporting as a
basis for designing audit procedures that are appropriate in the circumstances, but not for the purpose of
expressing an opinion on the effectiveness of FPI’s internal control over financial reporting. Accordingly, we
express no such opinion. An audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements. An audit also includes assessing the accounting principles used, and
significant estimates made by management, as well as evaluating the overall financial statement presentation. We
believe that our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the financial
position of the United States Department of Justice, Federal Prison Industries, Inc. as of September 30, 2011 and
2010, and the results of its operations and cash flows for the years then ended, in conformity with accounting
principles generally accepted in the United States of America.

Accounting principles generally accepted in the United States of America and OMB Circular No. A-136, Financial
Reporting Requirements, require that the Management’s Discussion and Analysis be presented to supplement the
basic financial statements. Such information, although not a part of the basic financial statements, is required by
the Federal Accounting Standards Advisory Board and OMB, who consider it to be an essential part of financial
reporting for placing the basic financial statements in an appropriate operational, economic, or historical context.
We have applied certain limited procedures to the required supplementary information in accordance with
auditing standards generally accepted in the United States of America, which consisted of inquiries of management
about the methods of preparing the information and comparing the information for consistency with




                                                       -15-
management’s responses to our inquiries, the basic financial statements, and other knowledge we obtained during
our audit of the basic financial statements. We do not express an opinion or provide any assurance on the
information because the limited procedures do not provide us with sufficient evidence to express an opinion or
provide any assurance.

In accordance with Government Auditing Standards, we have also issued our reports dated November 1, 2011, on
our consideration of FPI’s internal control over financial reporting and on our tests of its compliance with certain
provisions of applicable laws and regulations. The purpose of those reports is to describe the scope of our testing
of internal control over financial reporting and compliance and the results of that testing, and not to provide an
opinion on the internal control over financial reporting or on compliance. Those reports are an integral part of an
audit performed in accordance with Government Auditing Standards and should be read in conjunction with this
report in assessing the results of our audits.


COTTON & COMPANY LLP




Alan Rosenthal, CPA, CFE
Partner

November 1, 2011
Alexandria, Virginia




                                                       -16-
                    INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING


Acting Inspector General
United States Department of Justice


Acting Chief Executive Officer
Board of Directors
Federal Prison Industries, Inc.
United States Department of Justice


We have audited the Balance Sheets of the Federal Prison Industries, Inc. (FPI), a component of the United States
Department of Justice (DOJ), as of September 30, 2011 and 2010, and the related Statements of Operations and
Cumulative Results of Operations, and Statements of Cash Flows for the years then ended, and have issued our
report thereon dated November 1, 2011. We conducted our audits in accordance with auditing standards
generally accepted in the United States of America; standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States; and Office of
Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
amended.

FPI’s management is responsible for establishing and maintaining effective internal control over financial
reporting. In planning and performing our fiscal year 2011 audit, we considered FPI’s internal control over
financial reporting as a basis for designing our auditing procedures for the purpose of expressing our opinion on
the financial statements, but not for the purpose of expressing an opinion on the effectiveness of FPI’s internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of FPI’s internal
control over financial reporting or on management’s assertion on internal control included in Management’s
Discussion and Analysis. We limited our internal control testing to only those controls necessary to achieve the
objectives described in Government Auditing Standards and OMB Bulletin No. 07-04. We did not test all internal
controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of
1982, such as controls relevant to ensuring efficient operations.

A deficiency in internal control exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent, or detect and correct
misstatements on a timely basis. A material weakness is a deficiency, or combination of deficiencies, in internal
control, such that there is a reasonable possibility that a material misstatement of the entity’s financial statements
will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the second
paragraph and was not designed to identify all deficiencies in internal control over financial reporting that might
be deficiencies, significant deficiencies, or material weaknesses. In our fiscal year 2011 audit, we did not identify
any deficiencies in internal control over financial reporting that we consider to be material weaknesses, as defined
above.




                                                       -17-
This report is intended solely for the information and use of FPI’s management, DOJ Office of the Inspector
General, DOJ Justice Management Division, OMB, U.S. Government Accountability Office, and the U.S. Congress; it
is not intended to be and should not be used by anyone other than these specified parties.


COTTON & COMPANY LLP




Alan Rosenthal, CPA, CFE
Partner

November 1, 2011
Alexandria, Virginia




                                                    -18-
                          INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND OTHER MATTERS


Acting Inspector General
United States Department of Justice


Acting Chief Executive Officer
Board of Directors
Federal Prison Industries, Inc.
United States Department of Justice


We have audited the Balance Sheets of the Federal Prison Industries, Inc. (FPI), a component of the United States
Department of Justice (DOJ), as of September 30, 2011 and 2010, and the related Statements of Operations and
Cumulative Results of Operations, and the Statements of Cash Flows for the years then ended, and have issued our
report thereon dated November 1, 2011. We conducted our audits in accordance with auditing standards
generally accepted in the United States of America; standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States; and Office of
Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
amended.

FPI’s management is responsible for complying with laws, regulations, and contract agreements applicable to the
FPI. As part of obtaining reasonable assurance about whether FPI’s fiscal year 2011 financial statements are free
of material misstatement, we performed tests of its compliance with certain provisions of laws, regulations, and
contract agreements, noncompliance with which could have a direct and material effect on the determination of
financial statement amounts, and certain provisions of other laws and regulations specified in OMB Bulletin
No. 07-04, including the provisions referred to in Section 803(a) of the Federal Financial Management
Improvement Act of 1996 (FFMIA). However, providing an opinion on compliance with those provisions was not an
objective of our audit, and accordingly, we do not express such an opinion. The results of our tests of compliance
described in the preceding paragraph of this report, exclusive of those referred to in FFMIA, disclosed no instances
of noncompliance or other matters that are required to be reported under Government Auditing Standards and
OMB Bulletin No. 07-04.

Under FFMIA, we are required to report whether FPI’s financial management systems substantially comply with
federal financial management system requirements; applicable federal accounting standards; and application of
the United States Standard General Ledger at the transaction level based upon U.S. generally accepted accounting
principles issued by the Financial Accounting Standards Board, as applicable to the FPI in accordance with the
provisions of the Government Corporation Control Act of 1945 (31 U.S.C. §9101 to 9110) and Statement of Federal
Financial Accounting Standards No. 34, The Hierarchy of Generally Accepted Accounting Principles, Including the
Application of Standards Issued by the Financial Accounting Standards Board. To meet this requirement, we
performed tests of compliance with FFMIA Section 803(a) requirements.

The results of our tests of FFMIA disclosed no instances in which FPI’s financial management systems did not
substantially comply with the requirements described in the preceding paragraph.




                                                      -19-
This report is intended solely for the information and use of FPI’s management, DOJ Office of the Inspector
General, DOJ Justice Management Division, OMB, U.S. Government Accountability Office, and the U.S. Congress; it
is not intended to be and should not be used by anyone other than these specified parties.


COTTON & COMPANY LLP




Alan Rosenthal, CPA, CFE
Partner

November 1, 2011
Alexandria, Virginia




                                                    -20-
U.S. DEPARTMENT OF JUSTICE



FEDERAL PRISON INDUSTRIES, INC.


    PRINCIPAL FINANCIAL STATEMENTS


          AND RELATED NOTES






                  -21-
This page intentionally left blank.






               -22-
                                                                    Federal Prison Industries, Inc.
                                                                                                       Balance Sheets

As of September 30,
(DOLLARS IN THOUSANDS)                                                                2011                       2010

Assets

Current:
  Cash and cash equivalents                                                   $      291,510             $      322,448
  Accounts receivable, net                                                            46,680                     34,006
  Inventories, net                                                                   133,934                    203,331
  Other assets                                                                         2,582                      3,691
         Total current assets                                                        474,706                    563,476

Property, plant and equipment, net                                                   102,775                    116,896
         Total Assets                                                         $      577,481             $      680,372

Liabilities and United States Government Equity

Current:
  Accounts payable                                                            $       42,192             $       43,359
  Deferred revenue                                                                    99,669                    198,217
  Accrued salaries and wages                                                          10,620                     11,244
  Accrued annual leave                                                                 8,892                      9,911
  Other accrued expenses                                                               9,681                      9,950
         Total current liabilities                                                   171,054                    272,681

FECA actuarial liability                                                              16,403                      15,857
         Total Liabilities                                                           187,457                    288,538

United States Government Equity
  Initial capital                                                                      4,176                      4,176
  Cumulative results of operations                                                   385,848                    387,658

  Total United States Government Equity                                              390,024                    391,834
         Total Liabilities and United States Government Equity                $      577,481             $      680,372

                                                  The accompanying notes are an integral part of these financial statements.




                                                   -23-
                                                       Federal Prison Industries, Inc.
                            Statements of Operations and Cumulative Results of Operations

For the fiscal years ended September 30,
(DOLLARS IN THOUSANDS)                                                  2011                        2010

Revenue:

 Net sales                                                      $      745,423              $       776,984

 Other revenue                                                         154,654                       77,025

 Total revenue                                                         900,077                      854,009

Cost of revenue:

 Cost of sales                                                         683,928                      763,327

 Cost of other revenue                                                 146,642                       75,267

 Total Cost of Revenue                                                 830,570                      838,594

Gross profit                                                             69,507                      15,415

Operating expenses:

 Sales and marketing                                                      7,237                        5,907

 General and administrative                                            105,103                      106,535


 Total operating expenses                                              112,340                      112,442


Loss from operations                                                    (42,833)                    (97,027)

Interest income                                                             191                          259

Interest expense                                                               (3)                         (4)

Other income, net                                                        40,835                      40,444


Net loss                                                                 (1,810)                    (56,328)

Cumulative results of operations, beginning of fiscal year             387,658                      443,986


Cumulative results of operations, end of fiscal year            $      385,848              $       387,658


                                     The accompanying notes are an integral part of these financial statements.




                                                -24-
                                                              Federal Prison Industries, Inc.
                                                                                   Statements of Cash Flows

For the fiscal years ended September 30, 

(DOLLARS IN THOUSANDS)                                                          2011 
                     2010

CASH FLOWS FROM OPERATING ACTIVITIES

Net loss                                                                $         (1,810)          $       (56,328)
Adjustments to reconcile net income to net cash
   provided by operating activities:

      Depreciation and amortization                                              10,469                     11,120
      Loss on disposal of property, plant and equipment                           4,985                      4,079
      Changes in:
       Accounts receivable                                                      (12,674)                    21,706
       Inventories                                                               69,397                     60,901
       Other assets                                                               1,109                      2,271
       Accounts payable and accrued expenses                                     (2,531)                    (5,352)
       Deferred revenue                                                         (98,549)                     6,903

Net cash provided by (used in) operating activities                             (29,604)                    45,300


CASH FLOWS FROM INVESTING ACTIVITIES

  Purchases of property, plant and equipment                                      (1,334)                    (8,416)
  Construction-in-progress of plant facilities                                       -                            5

Net cash used in investing activities                                             (1,334)                    (8,411)


Net increase (decrease) in cash and cash equivalents                           (30,938)                     36,889
Cash and cash equivalents, beginning of fiscal year                            322,448                     285,559
Cash and cash equivalents, end of fiscal year                           $      291,510             $       322,448




                                            The accompanying notes are an integral part of these financial statements.




                                                  -25-
                                    Fiscal Years 2011 and 2010
                                   Notes to Financial Statements
                                      (Dollars in Thousands)

Note 1. Organization and Mission

Federal Prison Industries, Inc. (FPI) was established in 1934 by an act of the United States Congress.
FPI operates under the trade name UNICOR, as a wholly-owned federal government corporation
within the Department of Justice, and functions under the direction and control of a Board of
Directors, (the “Board”). Members of the Board are appointed by the President of the United States
of America and represent retailers and consumers, agriculture, industry, labor, the Attorney General,
and the Secretary of Defense. FPI’s statutory mandate is to provide employment and training for
inmates in the Federal Prison System while remaining self-sufficient through the sale of its products
and services.

FPI’s federal government customers include departments (percent of Revenue shown in parenthesis),
agencies and bureaus such as the Department of Defense (47%), the Department of Homeland
Security (18%), the Department of Justice (9%), the General Services Administration (5%), and the
Social Security Administration (5%). These and other federal organizations are generally required to
purchase products from FPI, if its products meet the customer’s price, quality, and delivery
standards, under a mandatory source preference specified in FPI’s enabling statute and the Federal
Acquisition Regulation.

FPI has industrial and service operations at 88 and 94 factories located at 66 and 70 prison facilities
that employed 14,200 and 15,907 inmates representing approximately 8% and 9% of the work
eligible inmate population as of September 30, 2011 and September 30, 2010, respectively.


Note 2. Summary of Significant Accounting Policies

Basis of Accounting

FPI transactions are recorded on the accrual basis of accounting. Under the accrual basis, revenues
are recorded when earned and expenses are recorded when incurred, regardless of when the cash is
exchanged.

Basis of Presentation

FPI has historically prepared its external financial statements in conformity with U.S. generally
accepted accounting principles based on accounting standards issued by the Financial Accounting
Standards Board (FASB), the private sector standards-setting body. The Federal Accounting
Standards Advisory Board (FASAB) has been designated as the standards-setting body for federal
financial reporting entities with respect to the establishment of US GAAP. FASAB allows certain
government agencies to utilize FASB standards for Financial Statement presentations.




                                                -26-
                                     Fiscal Years 2011 and 2010
                                    Notes to Financial Statements
                                       (Dollars in Thousands)


Use of Estimates

The preparation of financial statements in conformity with US GAAP requires management to make
estimates and assumptions that affect the reported amounts of assets and liabilities and disclosure of
contingent assets and contingent liabilities at the date of the financial statements and reported
amounts of revenues and expenses during the reporting period. Actual results may differ from those
estimates.

Cash and Cash Equivalents

FPI considers all highly liquid investments purchased with an original maturity of three months or
less to be cash equivalents. FPI limits its investment activities and cash equivalents to short-term
overnight repurchase agreements with the Bureau of Public Debt of the United States Treasury. The
market value of these overnight repurchase agreements is equivalent to cost.

Accounts Receivable / Concentration of Credit Risk

Financial instruments that potentially subject FPI to concentrations of credit risk consist primarily of
accounts receivable. FPI sells products and services to various federal government departments,
agencies and bureaus, as well as certain private sector companies, without requiring collateral.
Accounts receivable consists of amounts due from those entities and is stated net of an allowance for
doubtful accounts.

FPI routinely assesses the payment histories of its federal customers and the financial strength of its
private sector customers and maintains allowances for anticipated losses as they become evident. In
this regard, an insignificant amount of accounts receivable remained past due at September 30, 2011
and September 30, 2010. A majority of these past due items relate to billings to various entities
within Department of Defense (DOD) who rely on the Defense Finance and Accounting Service
(DFAS) to process vendor payments. Historically, customer payments processed through DFAS
have generally taken longer to receive than payments from other federal and private sector
customers. FPI believes that ultimately, a majority of its past-due accounts receivable are fully
collectable. The amount due FPI, net of allowances, from DOD for the fiscal years ended September
30, 2011 and 2010 was $27,399 and $19,067 respectively.

While federal accounts receivable are normally fully collectible in accordance with federal law, FPI
has established an allowance for future losses against its federal accounts receivable to account for
potential billing errors related to pricing and customer discounts, as well as instances of expired or
cancelled funding from its federally appropriated customers. At September 30, 2011 and 2010, FPI’s
allowance for doubtful accounts is stated at approximately $660 and $825, respectively, of which
approximately $131 and $224, respectively, represents the amounts allocated against federal
accounts receivable.



                                                 -27-
                                    Fiscal Years 2011 and 2010
                                   Notes to Financial Statements
                                      (Dollars in Thousands)


Inventories

FPI maintains its inventory primarily for the manufacture of goods for sale to its customers. FPI’s
inventory is composed of three categories: Raw Materials, Work-in-Process, and Finished Goods.
These categories are generally defined by FPI as follows: Raw Materials consist of materials that
have been acquired and are available for the production cycle, Work-in-Process is composed of
materials that have moved into the production process and have some measurable amount of labor
and overhead added by FPI, Finished Goods are materials with FPI added labor and overhead that
have completed the production cycle and are awaiting sale to customers.

Raw material inventory value is based upon moving average cost. Inventories are valued at the
lower of average cost or market value (LCM) and include materials, labor and manufacturing
overhead. Market value is calculated on the basis of the contractual or anticipated selling price, less
allowance for administrative expenses. FPI values its finished goods and sub-assembly items at a
standard cost that is periodically adjusted to approximate actual cost. FPI has established inventory
allowances to account for LCM adjustments and obsolete items that may not be utilized in future
periods.

Advances to Vendors

FPI generally does not offer advances to the public, however, where warranted, FPI will on occasion
make an advance to a vendor upon their request. Historically, these advances have been insignificant
and made primarily to the Industries for the Blind. During 2008, FPI established a program to
produce solar panels in anticipation of an expanding federal market as a result of Executive Order
13423 “Strengthening Federal Environmental, Energy, and Transportation Management,” which
requires federal agencies to improve energy efficiencies by the year 2015. A majority of advances in
fiscal year 2011 were given to the suppliers of the raw materials to produce solar panels. Prior to
issuing advances to a vendor, the Centralized Accounts Receivable section performs a review as
though they were a public customer, to include performing a due diligence review to assess risk and
a review of applicant financial statements. A letter of credit is obtained as needed based on the
results of this review. The FPI Controller approves advances prior to their disbursement. Advances
are reduced by offset to the vendor invoice as goods are delivered.

Revenue Recognition

FPI sells a wide range of products and services to a diversified base of customers, primarily
governmental departments, agencies and bureaus. Revenue is generally recognized when delivery
has occurred or services have been rendered, persuasive evidence of an arrangement exists, there is a
fixed or determinable price, and collectability is reasonably assured. Revenue from contracts that
require customer acceptance are not recognized until either customer acceptance is obtained, or upon
completion of the contract. Sales returns are primarily replaced with like items and are recorded as
they occur.

                                                -28-
                                    Fiscal Years 2011 and 2010
                                   Notes to Financial Statements
                                      (Dollars in Thousands)

Revenue is recognized on multiple element agreements as a single unit of accounting for
manufactured items when the product has been accepted by the customer. Revenue for services
provided on behalf of FPI through an outside company is recognized when the service provider
presents a valid invoice including a customer acceptance or completion notice.

FPI records as other revenue the shipping and handling costs that have been billed to our customers,
installation costs for FPI products, and items procured for its customers as part of procurement
services provided by the Interagency Solutions and Procurement Branch. The cost of providing this
service is recorded as a cost of other revenue.

Deferred revenue is comprised of customer cash advances, which have been paid to FPI prior to the
manufacturing of goods, delivery of goods, or performance of services.

Other income includes imputed financing for retirement, health benefits and life insurance (Note 8).


Property, Plant and Equipment

Property, plant and equipment are stated at cost, net of accumulated depreciation. Depreciation is
computed using the straight-line method over the following estimated useful lives:

                                        Years
Machinery & Equipment                   5 - 25
Computer Hardware                       5 - 10
Computer Software                       3-5
Building & Improvements                 24- 40

Upon retirement or disposition of property and equipment, the related gain or loss is reflected in the
statements of operations. Repairs and maintenance costs are expensed as incurred.

Taxes

As a wholly-owned corporation of the federal government, FPI is exempt from federal and state
income taxes, gross receipts tax, and property taxes.

Reclassifications

Certain fiscal year 2010 financial statement line items have been reclassified to conform with the
current year presentation. The reclassifications had no material effect on total assets, liabilities,
equity, cumulative results of operations or cash flows as previously reported.




                                                 -29-
                                    Fiscal Years 2011 and 2010
                                   Notes to Financial Statements
                                      (Dollars in Thousands)

Note 3. Accounts Receivable, Net

Accounts receivable, net consists of the following:

As of September 30,                                            2011                  2010

Intragovernmental billed receivables                         $ 34,491             $ 25,443
Private sector billed receivables                              12,849                9,388
                                                               47,340               34,831
       Less allowance for doubtful accounts                       660                  825

Accounts receivable, net                                     $ 46,680             $ 34,006

FPI incurred bad debt expense of $(66) and $546, respectively, for the fiscal years ended September
30, 2011 and 2010.


Note 4. Inventories, Net

Inventories, net consist of the following:

As of September 30,                                           2011                    2010
Raw materials                                              $ 46,988              $ 103,411
Raw materials – vehicles                                     17,500                 50,298
Work-in-process                                              25,857                 31,312
Finished sub-assemblies                                       6,138                  8,576
Finished goods                                               35,206                 36,399
Finished goods – acceptance contracts                        29,510                 22,074
                                                            161,199                252,070
Less inventory allowance                                     27,265                 48,739

Inventories, net                                          $ 133,934              $ 203,331


$17,500 of FPI’s fiscal year 2011 and $50,298 of FPI’s fiscal year 2010, raw materials balance
represents vehicles and component parts for use in the Fleet Management and Vehicular Components
business group’s retrofit product line. A majority of that inventory balance has been contracted on
behalf of the Customs and Border Protection and Bureau of Immigration and Customs Enforcement
of the Department of Homeland Security (DHS) for retrofit services that are performed by FPI. As
part of an interagency agreement, DHS provides advance funding to FPI to procure these vehicles.
Revenue is recognized by FPI at the time of shipment of retrofitted vehicles to DHS.



                                              -30-
                                     Fiscal Years 2011 and 2010
                                    Notes to Financial Statements
                                       (Dollars in Thousands)

$29,510 of FPI’s fiscal year 2011 and $22,074 of its fiscal year 2010 finished goods balance
represents goods shipped to customers or their agents for unrecognized revenue due to acceptance
criteria within the customer contract. The balances as of September 30, 2011 and September 30,
2010 are primarily systems furniture installations and destination acceptance contracts shipped after
the cutoff date for revenue recognition.

Included in total inventories as of September 30, 2011 and September 30, 2010, is $16,345 and
$42,393 in raw materials, work-in-process and finished goods in support of the solar panel product
line respectively.


Note 5. Property, Plant and Equipment, Net

Property, plant and equipment, net consist of the following:

As of September 30,                                               2011                     2010

Buildings and improvements                                     $ 178,347              $ 179,656
Machinery and equipment                                          104,052                109,453
Computer hardware                                                  2,149                  1,970
Computer software                                                  6,506                  6,484
                                                                 291,054                297,563
Less accumulated depreciation                                    188,279                180,667
Property, plant and equipment, net                             $ 102,775              $ 116,896


Depreciation and amortization expense totaled $10,469 and $11,120 for the fiscal years ended
September 30, 2011 and 2010, respectively. During fiscal year 2011, FPI invested $1,334 for the
purchase and construction of property, plant and equipment. During fiscal years 2011 and 2010, FPI
deactivated factories in an effort to reduce excess factory capacity. As a result of these deactivations,
FPI incurred losses on property plant and equipment of $4,599 in fiscal year 2011, and $4,039 in
fiscal year 2010.




                                                 -31-
                                      Fiscal Years 2011 and 2010
                                     Notes to Financial Statements
                                        (Dollars in Thousands)


Note 6. Other Accrued Expenses

Other accrued expenses consist of the following:

As of September 30,                                          2011                      2010

Materials in transit                                     $ 1,108                 $     1,607
Relocation travel expense                                  1,053                       1,107
FECA liabilities – current portion                         1,942                       1,656
Financial audit expense                                      530                         461
Telecommunication expense                                  1,132                         934
Utilities                                                    936                       1,204
Warranty expense                                             444                         451
Other expense                                              2,536                       2,530

Other accrued expenses                                    $ 9,681                    $ 9,950


Included in other expense as of September 30, 2011 and September 30, 2010 are accruals for Intra-
Departmental agreements of $622 and $501 and accruals for vendor invoices of $645 and $1,292,
respectively.


Note 7. Business Segments

FPI’s businesses are organized, managed and internally reported as seven operating segments based
on products and services. These segments are Clothing and Textiles; Electronics; Fleet Management
and Vehicular Components; Industrial Products; Office Furniture; Recycling; and Services. These
segments represent virtually all of FPI’s product lines. FPI is not dependent on any single product as
a primary revenue source; however, it is dependent on the federal government market for the sale of
its products and services. Fiscal year 2010 net sales of $776,984 included $4,088 recorded to FPI’s
Corporate Office. FPI’s net sales for the fiscal years ended September 30, 2011 and 2010 for each of
its business segments is presented for comparative purposes:




                                                -32-
                                     Fiscal Years 2011 and 2010
                                    Notes to Financial Statements
                                       (Dollars in Thousands)


Net Sales
For the years ended September 30,                               2011                   2010

Business Segment

Clothing and Textiles                                        $ 238,631               $ 246,470
Electronics                                                     76,443                  99,107
Fleet Management and Vehicular Components                      177,863                 205,221
Industrial Products                                             55,281                  44,029
Office Furniture                                               155,819                 129,312
Recycling                                                       15,276                  13,596
Services                                                        26,110                  35,161


Net sales                                                    $ 745,423               $ 772,896


Regulatory Compliance

FPI’s ability to add or to expand production of a specified product is regulated by the Federal Prison
Industries Reform Act (“the Act”). The Act provides specific guidelines to FPI regarding its
methodology for evaluating and reporting new or expanded products, including requiring FPI to
provide direct notice to trade associations and interested parties of such actions. Finally, publication
of annual decisions of the FPI Board of Directors and semi-annual sales disclosures are mandated
under the Act.


Note 8. Intra-Department of Justice (DOJ) / Intragovernmental Financial Activities

FPI’s financial activities interact with and are dependent upon those of DOJ and the federal
government as a whole. The following is a discussion of certain intra-DOJ and intragovernmental
activities and their relationship with FPI:

Relationship with the Federal Bureau of Prisons

FPI and the Federal Bureau of Prisons (BOP) have a unique relationship in that the nature of their
respective missions requires the sharing of facilities and responsibilities relative to the custody,
training and employment of federal inmates. The Director of the BOP, who has jurisdiction over all
federal penal correctional institutions, is the Chief Executive Officer (CEO). General management of
FPI is provided by the Chief Operating Officer who also serves as an Assistant Director of the BOP.
The BOP provides land to FPI for the construction of its manufacturing facilities and both FPI and
BOP share certain facilities, generally at no cost to FPI. In accordance with Managerial Cost
Accounting Concepts a reasonable estimate of these costs as provided by the BOP is included in
                                                 -33-
                                    Fiscal Years 2011 and 2010
                                   Notes to Financial Statements
                                      (Dollars in Thousands)

general expense and other income of FPI for the fiscal years ended September 30, 2011 and 2010,
respectively.

Self Insurance

In accordance with federal government policy, FPI is uninsured with respect to property damage,
product liability, and other customary business loss exposures. Losses incurred are absorbed as a
current operating expense of FPI or, if they are induced by factors related to FPI’s relationship with
the Federal Prison System, may be reimbursed by BOP. Certain other costs, principally relating to
personal injury claims, are paid directly by the federal government.

Federal Employees Compensation Act

The Federal Employees Compensation Act (FECA) provides income and medical cost protection to
cover federal civilian employees injured on the job, employees who have incurred a work-related
occupational disease, and beneficiaries of employees whose death is attributable to a job related
injury or occupational disease. The United States Department of Labor (DOL), which administers
FECA, annually charges each federal agency and department for its applicable portion of claims and
benefits paid in the preceding year. As of September 30, 2011 and September 30, 2010, the accrued
FECA liabilities as charged to FPI, approximated $1,942 and $1,656, respectively.

DOL also calculates the liability of the federal government for future claims and benefits, which
includes the estimated liability of death, disability, medical, and other approved costs. Future claims
and benefits are determined from an actuarial extrapolation, utilizing historical benefit payment
patterns and calculations of projected future benefit payments discounted to current value over a 23.5
year period. FPI’s estimated future liability approximated $16,403 and $15,857 at September 30,
2011 and 2010, respectively.

Retirement

Substantially all of FPI’s civilian employees are covered under either the Civil Service Retirement
System (CSRS) or the Federal Employees Retirement System (FERS). For employees covered under
CSRS (those employees hired prior to January 1, 1984), FPI contributed approximately 7 percent (for
normal retirement) or 7.5 percent (for hazardous duty retirement) of each employee’s salary. CSRS
covered employees do not have Federal Insurance Contributions Act (FICA) withholdings and, thus,
are not fully eligible to receive Social Security benefits. For employees covered by the FERS,
(generally those employees hired on or after January 1, 1984), FPI contributed (for normal
retirement) 11.7 and 11.2 percent for fiscal years ended September 30, 2011 and September 30,
2010, respectively. FPI contributed (for hazardous retirement) 25.7 and 24.9 percent for fiscal years
ended September 30, 2011 and September 30, 2010, respectively.

Under FERS, employees also receive retirement benefits from Social Security and, if applicable,
benefits from a defined contribution plan (thrift). Under the thrift plan, an employee may contribute
(tax deferred) to an investment fund, up to $16,500 of salary for the fiscal years ended September 30,
                                                -34-
                                     Fiscal Years 2011 and 2010
                                    Notes to Financial Statements
                                       (Dollars in Thousands)

2011 and September 30, 2010. FPI then matches this amount up to 4 percent, in addition to an
automatic 1 percent that is contributed for all FERS employees. Those employees, which elected to
remain under CSRS after January 1, 1984, continue to receive benefits in place, and may also
contribute (tax deferred) up to $16,500 of salary to the thrift plan, but with no matching amount
contributed by FPI.

CSRS and FERS are multi-employer plans. Although FPI funds a portion of pension benefits
relating to its employees, and provides for the necessary payroll withholdings, it does not maintain or
report information with respect to the assets of the plans, nor does it report actuarial data with respect
to accumulated plan benefits or the pension liability relative to its employees. The reporting of such
amounts is the responsibility of the United States Office of Personnel Management (OPM).

FPI’s contribution to both plans approximated $29,352 and $31,465 for the fiscal years ended
September 30, 2011 and 2010, respectively.

FPI must recognize its share of the cost of providing pension benefits to eligible employees utilizing
cost factors determined by the OPM. Included in general and administrative expense is
approximately $3,531 and $2,209 in the fiscal years ended September 30, 2011 and 2010,
respectively, with an offsetting credit to other income on the Statements of Operations and
Cumulative Results of Operations.

Health Benefits and Life Insurance

FPI, through the OPM, offers health and life insurance plans under which premium costs for health
care are shared between FPI and the employees. A substantial portion of life insurance premiums are
paid for by employees. Amounts paid by FPI for health benefits and life insurance approximated
$10,334 and $10,739 for the fiscal years ended September 30, 2011 and 2010, respectively.

OPM also provides health care and life insurance benefits for FPI’s retired employees. FPI must
recognize an expense related to its share of the cost of such post-retirement health benefits and life
insurance on a current basis (while its employees are still working), with an offsetting credit to other
income. Costs in this regard, which approximated $7,405 and $7,778 during the fiscal years ended
September 30, 2011 and 2010, respectively, were determined by OPM utilizing cost factors used to
estimate the cost of providing post-retirement benefits to current employees. However, because of
the offsetting credit, which is reflected as other income on the Statements of Operations and
Cumulative Results of Operations, the recording of these costs has no impact on reported net income
or cash flows.

Future post-retirement health care and life insurance benefit costs are not reflected as a liability on
FPI’s financial statements, as such costs are expected to be funded in future periods by OPM.




                                                  -35-
                                    Fiscal Years 2011 and 2010
                                   Notes to Financial Statements
                                      (Dollars in Thousands)

Note 9. Sales and Marketing, General and Administrative Expenses

Sales and marketing, general and administrative expenses consist of the following:


Sales and marketing, general and administrative expenses
Fiscal years ended September 30,                                      2011                    2010

Salaries, wages and benefits                                       $ 46,491               $ 47,841
Permanent change of station expense                                   1,350                    700
Purchases of minor equipment                                            307                    389
Contract services                                                     9,787                  9,225
Bad debt expense                                                       (66)                    539
Credit card service fees                                                897                  1,093
Travel                                                                1,721                  1,723
Personal computer expense                                             2,290                    910
Accident compensation                                                 2,409                  3,482
Financial audit                                                       1,690                  1,681
Marketing                                                             1,793                  1,791
Depreciation                                                          2,056                  2,005
Net loss on disposition of assets                                     4,984                  4,068
Telecommunication expense                                             2,976                  3,159
Other expense                                                       (2,745)                (3,599)
Imputed pension costs (Note 8)                                        3,531                  2,209
Imputed post-retirement health
    care and life insurance cost (Note 8)                             7,405                  7,778
Imputed operating costs                                              25,464                 27,448

Sales and marketing, general
   and administrative expenses                                    $ 112,340              $ 112,442


Other expense is comprised primarily of inmate wages, maintenance agreements, and distributions to
factory operations. FPI distributes certain General and Administrative expenses that benefit all
locations to the individual factory levels. These charges include Computer licenses and fees, Civilian
and Inmate Accident Compensation, and Check Charges. These charges totaled $8.1 million for
fiscal year 2011 and $9.3 million for fiscal year 2010. Contract services consist primarily of
consulting and sales and marketing fees. Salaries, wages and benefits are shown net of the imputed
financing offsetting credit (Note 8).




                                                -36-
                                     Fiscal Years 2011 and 2010
                                    Notes to Financial Statements
                                       (Dollars in Thousands)

Note 10. Commitments and Contingencies

Legal Contingencies

FPI is party to various administrative proceedings, legal actions, and claims. FPI was party to no
legal proceedings that are expected to result in a probable loss; accordingly, the balance sheets
contain no liabilities for contingencies. Legal actions where management and the Chief Council
consider adverse decisions reasonably possible and the amounts are reasonably estimable, should not
result in judgments which would have a material adverse effect on the organizations financial
statements. Furthermore, there are cases where amounts have not been accrued or disclosed because
the amounts of the potential loss cannot be estimated or the likelihood of an unfavorable outcome is
considered remote.

Lease Commitments

FPI leases certain facilities, machinery, vehicles and office equipment under noncancelable capital
and operating lease agreements that expire over future periods. Many of these lease agreements
provide FPI with the option (after initial lease term) to either purchase the leased item at the then fair
value or to renew the lease for additional periods of time. As of September 30, 2011, future capital
lease payments due and future operating lease commitments total $149 and $146, respectively.

Product Warranty

FPI offers its customers a promise of an “Escape Proof Guarantee” on the products it manufactures.
FPI has analyzed the historical pattern of warranty returns and the adequacy of the warranty returns
and allowances. In this regard, FPI has established an estimate of future warranty returns related to
current period product revenue.

Minimum Buy Contracts

FPI has entered into firm purchase commitments for solar panel materials totaling $13,129 to be
delivered in fiscal year 2012 and $23,672 to be delivered in fiscal year 2015.

Changes in aggregate product warranty liability
Fiscal years ended September 30,                                          2011                     2010

Balance at the beginning of the period                                    $ 451                   $ 478
Accruals for warranties issued during the period                            353                     342
Settlements made (in cash or in kind) during the period                    (360)                   (369)

Balance at the end of the period                                           $444                   $ 451




                                                  -37-
                                  Fiscal Years 2011 and 2010
                                 Notes to Financial Statements
                                    (Dollars in Thousands)

Congressional Limitation on Administrative Expenses

Congress has imposed an annual spending limit on certain administrative expenses relating to FPI’s
central office management. These costs include salaries for management personnel, travel expenses
and supplies. The following is a comparison of actual expenses to the limitation imposed:

Congressional limitation on administrative expenses
Fiscal years ended September 30,                                      2011                   2010

Congressional limitation on expenses                                  $ 2,695             $ 2,700

Expenses incurred subject to Congressional limitation                 $ 1,775             $ 2,025




                                              -38-
